OIG Audit Report GR-40-00-008
Office of Community Oriented Policing Services Grant to the Greensboro, North Carolina, Police Department

Audit Report GR-40-00-008
February 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Accelerated Hiring, Education, and Development Grant awarded by the Office of Community Oriented Policing Services to the Greensboro Police Department (grantee). The purpose of the grant is to enhance community policing.  The grantee was awarded a total of $824,505 to hire 11 new police officers.
	
	We reviewed the grantee's compliance with seven essential grant conditions.  We found the grantee's practices for budgeting and hiring officers, local matching funds, requesting reimbursement, retention of officer positions, and community policing activities to be acceptable.  However, we found the grantee submitted several status reports untimely.  

	 These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.